HHS/OIG, Audit -"Review of Arkansas's Accounts Receivable System for Medicaid Provider
Overpayments,"(A-06-05-00039)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Arkansas's Accounts Receivable
System for Medicaid Provider Overpayments," (A-06-05-00039)
January 30, 2006
Complete
Text of Report is available in PDF format (594 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This review was part of a multistate audit.  Our objective was to determine whether
the State reported Medicaid provider overpayments in accordance with Federal requirements.  During
our audit period, we found that the State did not report $313,538 ($238,928 Federal share)
in provider overpayments and did not report $229,657 ($175,581 Federal share) in provider
overpayments in a timely manner.  We recommended that the State:  (1) include unreported
overpayments totaling $313,538 on the CMS-64 and refund to the Federal Government the $238,928
Federal share; and (2) strengthen policies and procedures to ensure all future overpayments
are reported in accordance with Federal regulations.  The State agreed with our recommendations.